<html>
<title> - NOMINATION OF MICHAEL LEITER TO BE DIRECTOR, NATIONAL COUNTERTERRORISM CENTER</title>
<body><pre>[Senate Hearing 110-848]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-848

                   NOMINATION OF MICHAEL LEITER TO BE
               DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2008

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate









                  U.S. GOVERNMENT PRINTING OFFICE
48-491 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001












                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk















                                CONTENTS

                              ----------                              

                              MAY 6, 2008

                           OPENING STATEMENTS

Robb, Hon. Charles S., a Former U.S. Senator from Virginia.......     2
Rockefeller, Hon. John D., IV, Chairman, a U.S. Senator from West 
  Virginia.......................................................     4
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     5
Feingold, Russell D., a U.S. Senator from Wisconsin..............    21

                                WITNESS

Leiter, Michael, Director-Designate, National Counterterrorism 
  Center.........................................................     6

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Michael Leiter.............................     9
Prepared Statement of the Honorable Russell D. Feingold..........    23

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    30
Harvard Law Review Article Dated June 2000 Concerning Federal 
  Prosecutors, State Ethics Regulations, and the McDade Amendment    49
Harvard Law Review Article Dated March 1999 Concerning Recent 
  Cases..........................................................    63
Statement of Michael Leiter Before the U.S. House of 
  Representatives................................................    69
Remarks Presented by Michael Leiter to the Washington Institute..    82
Statement of Michael Leiter Before the U.S. House Committee on 
  Homeland Security..............................................    92
Statement for the Record by Edward Gistaro, National Intelligence 
  Officer/Transnational Threats, Office of the Director of 
  National Intelligence; and Michael Leiter, Principal Deputy 
  Director, National Counterterrorism Center.....................    99
Executive Branch Personnel Public Financial Disclosure Report....   105

 
                   NOMINATION OF MICHAEL LEITER TO BE
                  DIRECTOR, NATIONAL COUNTERTERRORISM
                                 CENTER

                              ----------                              


                          TUESDAY, MAY 6, 2008

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:20 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Committee Members Present: Senators Rockefeller, Feinstein, 
Wyden, Feingold, Whitehouse, Bond, Warner, and Snowe.
    Chairman Rockefeller. This hearing will come to order.
    The Committee meets today to consider the President's 
nomination of Mr. Michael Leiter to serve as the next Director 
of the National Counterterrorism Center.
    Before the Vice Chairman and I make our opening statements, 
I'm pleased to recognize our former colleague, Chuck Robb. 
Senator Robb not only served as a valued member of this 
Committee, a very good friend to me--southwestern Virginia and 
West Virginia share characteristics--but he went on to make an 
important contribution to intelligence reform as the Co-
Chairman of the Commission on the Intelligence Capabilities of 
the United States Regarding Weapons of Mass Destruction.
    It's a pleasure to have you here today to introduce Mr. 
Leiter. And I recognize Senator Robb for so doing.
    Senator Warner. Mr. Chairman, might I interject and join 
you in recognizing the presence of our distinguished colleague, 
a very special colleague to me, having shared the 
responsibility of the Commonwealth of Virginia with him for 
many years.
    And I also wish to point out, Mr. Chairman, that he's never 
lost a beat in continuing to do public service. You mentioned 
one commission; there are probably several others you could 
mention.
    But we thank you, Senator, and we welcome you before the 
Committee. When I had the pleasure of meeting with the nominee, 
we talked about you and I said he couldn't have picked a more 
able, inspiring Senator to introduce than you.
    Vice Chairman Bond. Mr. Chairman, this is getting thick. 
[Laughter.]
    Vice Chairman Bond. We could all say things about our 
former colleague, Senator Robb, but I think maybe we ought to 
get on to hearing his introduction.
    Senator Warner. Well, it was a small matter of Virginia 
with the two of us representing it. I think that required a 
little----
    Vice Chairman Bond. Oh, I thought it was--I thought you 
laid it on thick. I have a lot more I was going to say too. I 
don't want to wait till I get to my formal remarks.
    Senator Robb. Mr. Chairman, I am prepared to proceed 
whenever you would like me to, but I do not want to interrupt 
my distinguished former colleagues.
    Chairman Rockefeller. Unless you choose to proceed, in 
which case you may do so.

   STATEMENT OF THE HONORABLE CHARLES S. ROBB, A FORMER U.S. 
                     SENATOR FROM VIRGINIA

    Senator Robb. Thank you, Mr. Chairman. I do indeed 
appreciate the warm welcome from you and from others, from the 
four Members who are currently at the Committee table, all 
friends of long standing, and I am truly delighted. As a matter 
of fact, this used to be my favorite Committee, so I'm 
especially pleased to be here.
    Mr. Chairman, Mr. Vice Chairman, members of the Committee, 
as all of you know, Senators are often asked to introduce 
someone from their home state who's been nominated by the 
President. And in many cases, they may know this person only 
casually, and they do so as a courtesy.
    But for me, this introduction is personal. I'm delighted to 
have this opportunity to present the man that the President has 
formally nominated to become the Director of the National 
Counterterrorism Center. I'll let him present his son Zach in a 
few minutes for advice and counsel that he might want to share.
    Of course, Michael Leiter doesn't really need an 
introduction to this Committee because you've been working with 
Mike as Acting Director since Scott Redd retired last fall, and 
prior to that, as Deputy Director of the NCTC, and before that 
when he helped stand up the ODNI as chief of staff to the 
Deputy Director of that organization.
    You already know his reputation in the intelligence 
community, and it is truly remarkable. As recently as early 
2004, I had never heard of Mike Leiter. Yet in the last four 
years there is no one in the entire IC with whom I have had the 
pleasure of working more closely or for whom I have developed a 
higher regard.
    I give senior U.S. Court of Appeals Judge Larry Silberman 
full credit for bringing Mike into the intelligence orbit. When 
Judge Silberman and I agreed to co-chair the WMD commission--
and were incidentally given preferential hiring and detailing 
authority throughout government--Larry recommended to me that 
the very first people we ought to bring on board the 
commission's professional staff, even before choosing an 
executive director or general counsel, were a couple of recent 
super-bright Supreme Court law clerks to help us deal with the 
complexities of government organizations and requirements.
    He just happened to know two such men who fit that bill 
perfectly. And after we interviewed them, we agreed 
wholeheartedly and we hired them on the spot. The other man, 
Brett Gerry, is now chief of staff to the Attorney General of 
the United States.
    And I would submit to you that Mike Leiter, who is here for 
confirmation at this particular hearing, is as prepared, as 
qualified, as motivated to continue leading the NCTC as anyone 
in the IC today.
    I like and admire Mike Leiter for a number of reasons, not 
the least of which is the diversity of his experience. As a 
naval officer, he served in Bosnia and Iraq. His peers chose 
him to be president of the Harvard Law Review. He clerked for 
Justice Breyer.
    He was a highly regarded fast-track federal prosecutor in 
the Eastern District of Virginia, where most of the cases 
involving terrorism are brought, known as the rocket docket. 
And he was a real leader on the WMD Commission. He was the go-
to guy for all of us on the Commission when we needed something 
done right and done quickly. And he was also a major drafter of 
our final report.
    When Vice Admiral Scott Redd, who came out of retirement to 
serve as executive director of the WMD Commission and was then 
persuaded to come out of retirement again to stand up the NCTC, 
needed a Deputy Director at NCTC, he persuaded the DNI to let 
Mike move over to take the job, because Scott had worked very 
closely with Mike on the WMD commission and he knew just how 
good he was.
    Mike Leiter is a man wise beyond his years. He has a 
powerful intellect, impeccable integrity, indefatigable energy, 
and really solid judgment, even when he's faced with the most 
difficult and complicated questions. If there's anyone in the 
intelligence business who knows Mike Leiter and doesn't think 
he's the perfect fit for this incredibly difficult job, I 
simply haven't met them.
    Mike has the trust and admiration of his peers and his 
subordinates, because they know he'll speak truth to power and 
he'll take full responsibility for his decisions. I've watched 
him conduct his 0800 SVTC, his secure video teleconference, 
with participants from all over the globe, representing all 
elements of the counterterrorism network, dealing with raw 
intel reports in real time from every source imaginable, and 
he's as nimble and impressive as they come. As a leader, he's 
the real thing.
    There are, of course, no guarantees in countering the 
terrorist threats that we face 24/7, and Mike knows that as 
well as anyone. But with a consummate professional like Mike 
Leiter at the helm of NCTC, I'm confident that we're currently 
doing the best job that we've ever done to stay ahead of those 
who would do us harm.
    Mr. Chairman, distinguished members of this Committee, I 
hope you can tell I have enormous confidence in and unqualified 
respect for Mike Leiter. And I hope, in your wisdom, you will 
confirm him as quickly as possible.
    With that, Mr. Chairman, I thank you and I leave you in his 
care and abandon him to your plight, and I thank you.
    Chairman Rockefeller. Thank you, Senator Robb.
    I've been passing around a note up here that I was at your 
wedding at the White House----
    Senator Robb. Yeah.
    Chairman Rockefeller [continuing]. Trying to impress my 
colleagues. [Laughter.]
    Vice Chairman Bond. I am impressed.
    Senator Robb. And Mr. Chairman, before I leave, I might add 
that I was at your very first swearing-in as well, so we go 
back a long way--as governor, not as Senator.
    Chairman Rockefeller. And you were the only governor to 
show up.
    Senator Robb. With that, Mr. Chairman, I seek your leave, 
sir.

   OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, A U.S. 
                   SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. I welcome Mr. Leiter to this 
Committee even as I thank the departing Senator Robb. I also 
extend our welcome to his son Zachary, which has me in thorough 
confusion, because there are two extremely cute boys who look 
very much alike. So I need to have Zachary identified. That's 
Zachary. Hi, Zachary. Welcome.
    As outlined by Senator Robb, Mr. Leiter brings with him a 
demonstrated record of experience, which I believe will serve 
him well, should he be confirmed in his role as the Deputy and 
now Acting Director of NCTC. Mr. Leiter has demonstrated the 
leadership skills that are necessary for having that job.
    The NCTC was a key recommendation of the 9/11 Commission, 
was a central pillar of the Intelligence Reform and Terrorism 
Prevention Act of 2004. In that Act, Congress made the Director 
of NCTC a Presidentially appointed and Senate-confirmed 
position to ensure the Director had sufficient standing to 
execute the broad range of responsibilities assigned to your 
incredibly complex work.
    The National Counterterrorism Center has two critical 
functions--number one, to serve as the primary organization in 
the United States government for integrating and analyzing 
terrorism related to intelligence; and, two, to conduct 
strategic operational planning to integrate all instruments of 
national power--not just intelligence--in the battle against 
terrorism.
    In accordance with these functions, the Director of NCTC 
has unique dual-reporting requirements. On matters of terrorism 
intelligence and analysis, the NCTC Director reports to the 
Director of National Intelligence, but on issues related to 
counterterrorism strategic planning, the Director of NCTC 
reports directly to the President.
    I look forward to hearing Mr. Leiter's views on both of 
these critical functions, the position's unique reporting 
requirements and the adequacy of the authorities given to the 
Director of the Center. I also hope to hear Mr. Leiter's plans 
to advance and strengthen the important work now being 
conducted at the NCTC.
    The Committee, of course, is very familiar with the NCTC's 
work. Not only are we a customer and a consumer of your 
intelligence analysis, but the Committee has had an opportunity 
to visit the NCTC just recently, where you presided over that, 
as I hope I told you, brilliantly.
    Our visit there inspired confidence in the Center's 
capability to go after terrorists around the globe. It just 
did. The NCTC leadership, staff, analysts are undeniably 
dedicated to keeping this nation safe from terrorism. I take 
this opportunity to extend our public thanks to Mr. Leiter, his 
deputies, and the many analysts at NCTC who met with me and the 
Vice Chairman and other members of this Committee. We say that 
frequently, but what needs not to get lost is that we mean it.
    As we all know, the threat of terrorism is real, on-going, 
and evolving. The most recent National Intelligence Estimate on 
terrorism--a portion of which was declassified in July, 2007--
stated that from its safe haven in Pakistan, al-Qa'ida had 
regenerated key elements of its U.S. attack capabilities. Most 
troubling is the judgment that they will continue to try to 
acquire and use chemical, biological, radiological or nuclear 
materials in attacks. Clearly the NCTC must succeed at the 
tasks assigned to it; our security and safety depend on it.
    Mr. Leiter is not a product of the intelligence community 
himself, but after meeting with him and reviewing his 
background I believe he has a resume that will serve him well. 
And, quite frankly, there are parts of me that welcome the fact 
that you don't have that as part of your official background. 
It implies and infers to me a certain kind of objectivity, when 
necessary, irreverence, and that you'll give us your thoughts, 
straight and true.
    Unlike many nominees, we have direct evidence of your 
ability to do this job since you've been Acting for six months. 
Undoubtedly there are many challenges ahead. And we will probe 
into some of those, but I now ask if Vice Chairman Bond wishes 
to make an opening statement.

 OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, A U.S. SENATOR 
                         FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Mr. Chairman. Of 
course I'm delighted to be able to welcome Mr. Leiter to the 
Committee's hearing on the nomination to be the next Director 
of the National Counterterrorism Center. And I expend a very 
special welcome to your young son, Zachary, and the guy who's 
riding shotgun for him, Will. The two of them, I am sure, can 
provide any assistance that you need. If you need a little fire 
support, we can call in those two guys.
    But, Mike, if you're confirmed as Director, the time period 
for which you would serve could be an abbreviated one due to a 
change in administration. But I strongly hope it will not. And 
whoever that person may be--and there's a little disagreement 
on this panel--I will certainly urge that you continue to do so 
if you continue to realize the high accomplishments that you 
have already registered. But the potentially short term should 
in no way diminish the responsibilities and challenges that lie 
ahead. And our expectations, as you've heard from the Chairman, 
are very high that you will address these challenges head-on.
    The NCTC was created, as you well know, to address the 
shortcomings identified in the 9/11 Commission report. As such, 
we realize the NCTC is still in the building phase, is not a 
finalized entity, but there have been some very encouraging 
signs that its creation was indeed a very wise one.
    The Chairman has already ably outlined the major 
responsibilities of the NCTC. They include assigning 
responsibilities, making sure other agencies have access, and 
receive all source intelligence for the counterterrorism plans, 
and have the intelligence they need to carry out their 
missions. And if there is one area that I think was sorely 
lacking, it was that sharing of information that put us in a 
position where we could not determine the extent of the threat 
to us prior to 9/11.
    But, Mr. Leiter, you've been with the NCTC for 15 months, 
and I'd be interested to hear your assessment of the progress, 
particularly as it comes to the role of strategic operational 
planner for the IC. I look forward to hearing your ideas on how 
to advance progress and resolve any concerns that may exist 
within the IC about NCTC's role as a strategic operational 
planner.
    I was around when the initial effort was made to set up the 
NCTC, and let us say that that was not a painless birth. There 
were quite a few difficulties in getting it established. But 
the agencies who may have been somewhat under-enthusiastic at 
the first are the ones who will benefit from the NCTC's 
counterterrorism analysis, and they should now be willing fully 
to assist in performing the mission, whether that means better 
information sharing or providing more analytic resources or 
support.
    As you and I have discussed in conversation, I find it 
particularly encouraging that, with your experience and 
knowledge of it and bringing a fresh view in, you have 
understood so clearly what is now being recognized much more 
widely, and that is that while there must be kinetic force to 
fight the immediate challenges of the radical terrorists who 
threaten us, that the 80 to 90 percent of the battle is still 
going to be in the rest of smart power. Smart power, in my 
view, encompasses the educational, economic, diplomatic, 
political, social, trade efforts that must go along if we are 
to stop the spread and stop the cancer of radical terrorists 
growing.
    So, Mike, I hope you can give us an idea of what you can do 
to move forward on all these areas. I'm particularly interested 
in your thoughts on the FBI co-locating its international 
terrorism headquarters within the NCTC; and the CIA's al-Qa'ida 
analytic elements, thus far, refusing to co-locate at your 
facility. We'd like to hear which one's the better decision, 
from your perspective, and why.
    Mr. Chairman, this is such an important job. I hope we can 
get the Committee to act on this and get it to the floor, and 
get him confirmed--so long as he doesn't blow it in the coming 
few moments, which I am confident he will not. I look forward 
to his statement.
    Chairman Rockefeller. You may proceed.

   STATEMENT OF MICHAEL LEITER, DIRECTOR-DESIGNATE, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. I felt okay until that last comment there, Mr. 
Chairman. [Laughter.]
    Mr. Leiter. Chairman Rockefeller, Vice Chairman Bond and 
Senators Feinstein and Warner, thank you very much for the 
opportunity to appear today. I would also like to add a very 
special thanks--I'm sorry he's not here to hear it--to Senator 
Robb, for that incredibly kind introduction and his kind words.
    It has been my distinct privilege to serve at NCTC since 
February 2007, first as the principal Deputy Director and, for 
the past six months, as the Acting Director. I'm extremely 
honored to appear before the Committee today to discuss my 
credentials. I have submitted for the record a longer 
statement, and I ask that it would be made part of the record, 
Senator.
    Chairman Rockefeller. It will be.
    Mr. Leiter. Before going forward, although he's been 
welcomed by all of you, I want to note how privileged I am to 
have my son Zachary with me today. And I honestly could ask for 
no better inspiration in the work that I have to do at NCTC 
than people like Zach and the Zachs all around the world.
    On September 11th, 2001, our nation experienced what was 
undoubtedly the most traumatic terrorist attack in our nation's 
history. Now, this Committee and, I think, the public needs no 
reminder of that fact, but I begin here because it was in fact 
that event that was the impetus to the creation of NCTC. And 
from my perspective, it remains the guiding principle and the 
guiding vision for me at the Center.
    The goal at the time of the attack and the creation of NCTC 
was simple, and that was to provide greater security for the 
nation and do so while protecting fundamental American values. 
The means to doing that were equally straightforward: create in 
NCTC a center to organize the U.S. government's intelligence 
and strategic planning response to terrorism in a manner that 
was simply not possible before 9/11.
    Should I have the honor of being confirmed by the Senate, 
it is these two foundational principles--greater security while 
simultaneously protecting fundamental American values--that 
will guide all of my actions. In many ways I believe, and I 
hope you believe, that my credentials speak very much to these 
principles and, moreover, to the type of work that NCTC must 
do.
    I am not, as the Chairman has noted, a product of a 
lifetime of service in a single government agency. Rather, my 
career includes service in the United States Navy--Senator 
Warner, I did not plan ahead--the Department of Justice, the 
office of the DNI, and in the judicial branch as a law clerk to 
federal judges, to include Associate Justice Stephen Breyer of 
the Supreme Court. And I believe I would also be remiss, 
considering what NCTC and this nation has to do, if I did not 
also note my seven-plus years of service as a first responder, 
as an EMT and firefighter working for local governments.
    I would proffer that such experience--the military, law 
enforcement, intelligence, legal, and as a first responder--are 
many of the same key elements that NCTC and we as a nation must 
bring together to address terrorism effectively.
    Now, in each of these roles, in addition to my service with 
the Robb-Silberman Commission, I have strived to gain the trust 
and confidence of my subordinates, my peers, and my superiors. 
And my approach has always been straightforward: listen to 
those around you and lead with vision, tenacity, judgment and, 
above all else, integrity.
    It is these traits that I have attempted to bring to NCTC 
over the past year, and it is my performance over the past six 
months as Acting Director that I would suggest best foreshadows 
how I would lead NCTC in the future.
    Throughout this time I have attempted to build strong 
partnerships throughout the U.S. government, within the 
intelligence community, but also beyond. And I have urged all 
those within NCTC to similarly aggressively lead their 
community counterparts.
    With that overview, I would like to briefly provide you 
with my outline for my vision of NCTC and, by extension, the 
future of the U.S. government's fight against terrorism.
    My first priority and the very first responsibility given 
to NCTC under the Intelligence Reform Act is to ensure that 
NCTC is the primary organization for analyzing and integrating 
terrorism information, ensuring counterterrorism information 
sharing among federal agencies, and supporting other agencies' 
sharing of counterterrorism information with non-federal, 
state, local, tribal, and private-sector partners.
    This is an area in which, from my perspective, we have made 
really tremendous progress, although much, much more remains to 
be done, especially, I would note again, as it relates to 
supporting the non-traditional partners outside of Washington 
who are so critical to this fight.
    Second, NCTC must further institutionalize U.S. government- 
wide, beyond the intelligence community, strategic planning. 
From my experience working in the interagency system, I am more 
convinced today than ever before that our success in the fight 
against terrorism will only come through such coordinated and 
synchronized efforts, to include the full weight, as Vice 
Chairman Bond noted, of our diplomatic, financial, military, 
intelligence, homeland security, and law enforcement 
activities. And it is up to NCTC--and, if I am confirmed, it is 
up to me as Director of NCTC--to drive those efforts.
    Third, again as the Vice Chairman noted, NCTC and, I 
believe, the entire U.S. government, must increase our efforts 
to combat violent extremism through greater ideological 
engagement. Despite our successful kinetic actions against the 
enemy, it has to be emphasized over and over again that the 
fight against terrorism will not be won solely through bullets 
and bombs. Rather, we must have an equally robust effort in 
what many term the war of ideas.
    If confirmed, I will take it as my charge to provide the 
intelligence analysis necessary to enable this engagement and 
equally, if not more important, to help bring together all the 
elements of national power beyond the intelligence community in 
this long-term effort.
    Fourth, NCTC must provide leadership and programmatic 
oversight of the intelligence community's counterterrorism 
efforts beyond the NCTC and on behalf of the DNI. Ultimately, 
NCTC is simply one part of a much larger intelligence community 
effort against terrorism. In this regard, NCTC must help to 
lead that community to ensure that we function as more than the 
sum of our parts and make best use of what are limited 
resources.
    Fifth and finally, and perhaps in many ways the most 
important, NCTC must continue to attract the most highly 
motivated and qualified personnel to allow us to meet all of 
these challenges.
    Mr. Chairman, I am very pleased that you got to meet some 
of those highly qualified, highly motivated analysts and 
planners who do the work at NCTC, and I very much recognize 
that as a leader, NCTC's ultimate fate will be based far more 
on my ability to enable that extraordinary workforce than my 
personal efforts alone.
    In doing all this, from my perspective, little is more 
important than ensuring that this Committee and the larger 
Congress are appropriately informed of NCTC's activities. And 
moreover, while I begin with the legal requirements as a 
lawyer--and they are paramount--I also heartily welcome your 
valuable insights into how NCTC, the intelligence community and 
the U.S. government should go about this business.
    Your years of experience are ones that I hope I can benefit 
from in leading NCTC, if confirmed. Let me stress that no 
single department, no agency and, most importantly, no branch 
of government has a monopoly on wisdom on how to fight 
terrorism. If confirmed, I look forward to the benefit of the 
Committee's views and will seek its advice on how NCTC should 
proceed in this mission.
    In closing, Mr. Chairman, I would like to take a note from 
my predecessor, Scott Redd, on the occasion of his confirmation 
hearing about three years ago. Then he noted that he was 
entering the realm of being a so-called political appointee and 
he noted that there was nothing political about the job of the 
Director of NCTC. I could not agree more strongly.
    Every day that I have served at NCTC I have been guided by 
the foundational principles that I noted when I opened--
providing Americans and our allies with greater security while 
simultaneously protecting fundamental American values. In my 
view, NCTC's mission has not been and must never be driven by 
political calculations, for whatever differences we may have on 
approach or emphasis, they pale in comparison with our very 
common goals.
    Mr. Chairman, members of the Committee, thank you again for 
this opportunity, for which I am truly humbled and honored. I 
look forward to answering your questions today and, if the 
Senate chooses to confirm me, to working very closely with all 
of you and your staffs in the future to ensure that I wisely 
carry out my duties as Director of NCTC.
    Thank you.
    [The prepared statement of Mr. Leiter follows:]
 Prepared Statement of Michael Leiter, Director (Acting), the National 
                        Counterterrorism Center
    Chairman Rockefeller, Vice Chairman Bond, members of the Committee. 
Thank you for the opportunity to appear before you today on the 
occasion of my nomination to serve as the Director of the National 
Counterterrorism Center (NCTC). It has been my distinct privilege to 
serve as the Center's Principal Deputy Director since February 2007, to 
serve as its Acting Director for the past six months, and most recently 
to be nominated by the President to serve as the Center's Director. I 
am further honored to appear before this Committee today to discuss my 
credentials to be confirmed as NCTC's Director, as well as my vision 
for NCTC in the coming years.
    Before turning to these issues, however, I think it critical to 
reflect briefly on why NCTC was created by the Congress and President 
less than four years ago. On September 11, 2001, our nation experienced 
the single most traumatic terrorist attack in its history. NCTC was 
created to organize the U.S. Government's intelligence and strategic 
planning response to the threat of terrorism in a manner that was not, 
for a variety of reasons, possible before the tragedy of 9/11. And we 
were created to do so in a manner that not only provides our citizens 
with greater security, but also simultaneously protects the civil 
liberties that are the very essence of our nation.
    I begin here because it is these foundational principles--providing 
greater security while protecting fundamental American values--that 
will, if I have the honor of being confirmed by the Senate, motivate 
all of my actions. And I would seek to lead NCTC in a manner that fully 
honors all of those who have been touched by the scourge of terrorism.
    In many ways I believe that my credentials speak very much to these 
guiding principles and, moreover, to the type of work that is required 
of NCTC. I am not, as this Committee is well aware, a product of a 
lifetime of service in a single department or agency. Rather my career 
includes service in the United States Navy, the Department of Justice, 
the Office of the Director of National Intelligence, and in the 
Judicial Branch as a law clerk to two federal judges. And I believe I 
would be remiss if I did not also note my seven-plus years of 
experience working for local governments as a first responder. I would 
proffer that such experience--the military, law enforcement, 
intelligence, legal, and local first responder communities--are many of 
the same key elements that NCTC, and we as a nation, must bring 
together to address terrorism effectively.
    From my perspective my legal training and experience as a law clerk 
to Associate Justice Stephen Breyer and then as an Assistant United 
States Attorney is especially relevant to the NCTC's work. As 9/11 so 
vividly illustrated, a substantial portion of counterterrorism 
intelligence and the U.S. Government's response to terrorism must occur 
within our borders. Having led interagency investigative teams as a 
prosecutor, I believe I have a healthy appreciation of the issues faced 
by law enforcement agents in the United States. Moreover, having served 
for two federal judges of the highest caliber, I have developed an 
unshakeable and profound respect for the importance of the rule of law 
and respect for civil liberties.
    These experiences have, I believe, prepared me well to lead an 
organization that must not only analyze information that is collected 
within the United States, but also advise the Director of National 
Intelligence on operations relating to counterterrorism in the United 
States and assist the President's National and Homeland Security 
advisors in devising forward-looking strategic plans to counter the 
potential spread of violent extremism here at home.
    I believe that my experience studying the Intelligence Community 
from the outside further qualifies me to lead the interagency element 
that is NCTC. As a lead investigator and report drafter for the 
Commission on the Intelligence Capabilities of the United States 
Concerning Weapons of Mass Destruction (WMD Commission) I had the 
distinct honor of working intimately with nine preeminent 
Commissioners, to include Senator Chuck Robb who was kind enough to 
introduce me to the Committee today. Equally important, I had the 
luxury of devoting more than a year to an in-depth, Intelligence 
Community-wide study of where we performed well and where reform was 
necessary.
    In this role I spent countless hours examining intelligence 
collection, analysis, dissemination, and structural characteristics 
and, much more significantly, formulating recommendations to improve 
the Intelligence Community's performance. Much of my time at the 
Commission was devoted to the issues I have faced since arriving at 
NCTC--integrating counterterrorism information, confronting the spread 
of weapons of mass destruction, and ensuring that policy makers receive 
timely, accurate, and unbiased assessments of complex national security 
challenges. My subsequent service to then-Director of National 
Intelligence John Negroponte and then-Principal Deputy Director of 
National Intelligence Michael Hayden provided the even more 
illuminating experience of turning the Intelligence Reform and 
Terrorism Prevention Act of 2004 and the Commission's freshly authored 
recommendations into real action and tangible results across the 
Intelligence Community.
    Ultimately, however, I believe that my strongest credential to 
serve as Director of NCTC cannot be distilled from a list of 
educational or professional accomplishments. Rather, I consider my 
proven leadership of NCTC to be the truest testament to my 
qualifications. During my time at NCTC--and in my leadership elsewhere, 
to include the U.S. Navy and the Office of the Director of National 
Intelligence--I have strived to gain the trust and confidence of my 
subordinates, peers, and superiors. My approach has been 
straightforward: listen to those around you and lead with vision, 
tenacity, judgment, and integrity.
    I am proud of the relationships that I have developed since 
arriving at NCTC, both within our walls and with key partners in the 
U.S. Government, among state and local leaders, and our foreign allies. 
I have undoubtedly made mistakes during this period, but I have done 
all that I can to learn from those mistakes and improve my--and NCTC's 
performance. And I believe that overall, and in spite of the fact that 
I have served as both the Acting Director and Principal Deputy Director 
for the past six months, I have helped NCTC become more effective 
during this time.
    These are, from my perspective, the principal reasons that I am 
qualified to serve as the Director of NCTC. I would now like to provide 
you with my vision for the future of NCTC and, by extension, what the 
future holds for the U.S. Government's fight against terrorism. More 
specifically, I will address five broad topics: (1) improving NCTC's 
intelligence support to ``non traditional'' partners; (2) 
institutionalizing cross-Government strategic operational planning; (3) 
advancing the U.S. Government's global ideological engagement; (4) 
leadership and programmatic oversight of the Intelligence Community's 
counterterrorism efforts on behalf of the Director of National 
Intelligence (DNI); and (5) ensuring that NCTC has the people to 
fulfill all of its responsibilities.
    My first priority, and the first responsibility given to the Center 
by the Intelligence Reform and Terrorism Prevention Act of 2004 
(IRTPA), is to ensure that NCTC is truly the primary organization for 
analyzing and integrating terrorism information, ensuring 
counterterrorism information sharing among federal agencies, and 
supporting other agencies' sharing of counterterrorism information with 
non-federal partners. In all of these roles I report to the DNI, 
Michael McConnell, and serve as his Mission Manager for 
counterterrorism. On several occasions prior and subsequent to the 
President's decision to nominate me to serve as Director, Director 
McConnell and I have spoken to discuss my potential leadership of NCTC 
and I am confident that we share a common vision for the Center's 
future.
    I believe that NCTC has, since its inception, made enormous 
progress toward fulfilling this primary responsibility. Today NCTC 
authors the majority of terrorism analysis that goes to senior policy 
makers and it ensures that all such products are appropriately 
coordinated among Intelligence Community components. But whereas this 
progress has been significant, we have moved more slowly in our support 
to ``non traditional'' partners such as FBI Joint Terrorism Task 
Forces; state, local, and tribal homeland security officials; and 
military commanders in the field. NCTC has not--and will not if I am 
confirmed--seek to displace the FBI, DHS, and DIA as they serve these 
respective customers, but we can and must do a better job of crafting 
our analytic product to support these diverse consumers.
    In addition, we must continue to strengthen our focused information 
sharing efforts to these customers, as best embodied by our Defense 
Intelligence Unit (co-staffed by personnel from DIA's Joint 
Intelligence Task Force for Combating Terrorism and U.S. Northern 
Command) and the Interagency Threat Assessment and Coordination Group 
(ITACG, staffed by state and local law enforcement officers). These 
targeted information sharing components not only push information to 
these customers with unique counterterrorism needs, they also help to 
educate the rest of NCTC's staff on how our products can be shaped to 
speak more effectively to those combating terrorism outside of 
Washington.
    Second, NCTC must further institutionalize U.S. Government-wide 
strategic operational planning (SOP). In its essence, SOP bridges the 
gap between coordinated interagency policy and strategy, and operations 
by Departments and Agencies to implement that strategy. From my 
experience working within the interagency system I am more convinced 
than ever that success against terrorism will only come through such 
coordinated and synchronized efforts--to include the full weight of our 
diplomatic, financial, military, intelligence, homeland security and 
law enforcement activities.
    Since the President's approval of the first-ever National 
Implementation Plan in 2006, SOP has matured and evolved very 
significantly. Although we continue to pursue broad strategic plans 
that meaningfully guide department and agency programs and budgets, we 
have also initiated far more granular, targeted efforts to ensure 
department and agency implementation of plans on key topics (e.g., 
terrorists' acquisition of weapons of mass destruction). I strongly 
believe that this combination of ``deliberate'' and ``dynamic'' 
planning, with forceful support from the National and Homeland Security 
Councils, will ultimately lead to cohesive government planning and 
execution against terrorism.
    Third, NCTC must--through both its intelligence and strategic 
operational planning components--increase our efforts to combat violent 
extremism through ideological engagement. Despite our successful 
kinetic actions against the enemy, it must be emphasized that the fight 
against terrorism will not be won solely with bullets and bombs in the 
central battlefields of Afghanistan, Iraq, and elsewhere. Rather, we 
must have an equally robust effort in what many term the ``War of 
Ideas.''
    This global ideological engagement constitutes a key center of 
gravity in the battle against al-Qa'ida, its associates, and those that 
take inspiration from the group. Terrorist leaders aggressively employ 
messages related to current events, leverage mass media technologies, 
and use the Internet to engage in a communications war against all who 
oppose their oppressive and murderous vision of the world. We must 
engage them on this front with equal vehemence and we can do so in a 
way that makes quite clear how bankrupt their extremist ideology is. If 
confirmed as the Director of NCTC, I will expend significant time and 
energy to make sure that the Center's analysts address this issue from 
all perspectives, and I will spend equal time working to bring together 
all elements of national power--from the Departments of State, Defense, 
Homeland Security, Justice, and elsewhere--to tackle this long-term 
effort.
    Fourth, NCTC must provide leadership and programmatic oversight of 
the Intelligence Community's counterterrorism efforts on behalf of the 
DNI. As IRTPA clearly recognized and as the WMD Commission further 
noted, there is a dire need for interagency coordination on key mission 
areas such as terrorism. Ultimately NCTC is only one part of a much 
larger counterterrorism effort within the larger Intelligence 
Community. In this regard NCTC must help to lead that community to 
ensure that we function as more than the sum of our parts. If 
confirmed, I intend to continue working closely with Director McConnell 
as well as the leadership of the Intelligence Community to coordinate 
counterterrorism efforts and provide budgetary advice to the Director 
as he formulates future National Intelligence Program budget requests.
    Fifth, NCTC must continue to attract highly motivated and qualified 
personnel to allow us to successfully meet all of the preceding 
challenges. Doing so will require us to hire officers directly to NCTC 
as well as working extremely closely with our partner agencies to 
obtain qualified detailees. NCTC has experienced substantial growth 
since its inception and I believe that this growth must continue 
through Fiscal Year 2009 in order to provide the analytic and strategic 
planning support mandated by IRTPA. As the Center grows we must provide 
our workforce--both permanent and those detailed from elsewhere in the 
interagency--the resources, opportunities, and incentives necessary for 
success. As a leader I know that NCTC's ultimate fate will be based far 
more on my ability to enable NCTC's extraordinary workforce than on any 
personal efforts.
    In doing all of this, little is more important than ensuring that 
this Committee and others are appropriately informed of NCTC's 
activities. One way the Center does so is through the daily provision 
of intelligence directly to the Congress. Already this year NCTC has 
provided more than 223 separate analytic terrorism products over 
CAPNET, a secure Internet link between the Intelligence Community and 
the Congress. These products include Intelligence Community Terrorist 
Threat Assessments, NCTC's Terrorism Dispatch, and the NCTC's 
Spotlight. I am completely committed to ensuring that this Committee 
has the information it needs to perform its constitutional oversight 
duties. The principle of checks and balances is one of the fundamental 
tenets of our form of government and it is one that I fully appreciate 
and look forward to supporting through open and honest communication 
with the Congress.
    Moreover, while the legal requirements for oversight are clearly 
paramount, I also heartily welcome your invaluable insights on how NCTC 
and the counterterrorism community should go about its business. Your 
many years of experience in intelligence and elsewhere are a strength 
that I intend to benefit from in leading NCTC if confirmed. No single 
department, agency or branch of government has a monopoly on wisdom 
when it comes to fighting terrorism. If confirmed, I look forward to 
the benefit of the Committee's views and will seek its advice on how 
NCTC should proceed in its vitally important missions.
    In closing, I would like to take a note from my predecessor, Vice 
Admiral Scott Redd's confirmation hearing. Almost three years ago 
Admiral Redd noted that although he was entering the realm of being a 
``political appointee,'' there was nothing political about the job of 
Director of NCTC. I could not agree more strongly. Every day that I 
have served at NCTC I have been guided by the foundational principles 
that I noted when I opened--providing Americans and our allies with 
greater security while simultaneously protecting fundamental American 
values. In my view NCTC's mission has not been and should not be driven 
by political calculations, for whatever differences we may have on 
approach or emphasis, they pale in comparison with our common goals.
    Thank you again for this opportunity for which I am truly honored. 
I look forward to answering your questions and, if the Senate chooses 
to confirm me, to working very closely with you in the future to ensure 
that I carry out my responsibilities wisely.

    Chairman Rockefeller. Thank you, Mr. Leiter. That's a 
comforting statement, delivered with, I believe, the core 
values that are within you.
    We sent you some questions, and in one of your answers, you 
wrote, ``Our former Director concluded that the NCTC permanent 
cadre should comprise 20 percent of the NCTC's total personnel 
strength. Over the past six months, I have concluded that a 
slightly higher percentage would be optimal. In this light--
this is what you said--``in this light, if I should be 
confirmed, I would pursue a strategy to ensure that the NCTC 
permanent cadre be approximately 30 to 35 percent of the NCTC 
total workforce.''
    Now, this is one of those questions which is always hard to 
answer but, generally speaking, in an era of leniency and 
scarce resources and flexibility and cutting through the waters 
rapidly, I'm somewhat concerned at this strategy of the growth 
of the permanent staff of the NCTC. I believe that a certain 
percentage of experienced permanent staff is required, 
obviously, for the sake of the overall, and that's a very large 
number, and I recognize that. I'm not convinced that the 
permanent cadre needs to be as high as 35 percent. I'm not 
necessarily criticizing that before I hear what your response 
is, but I worry about hiring a permanent cadre of new analysts 
without intelligence community experience.
    I understand that some intelligence agencies continue to 
resist detailing their personnel to what will hopefully be your 
agency. And I wonder if your strategy is a way to deal with 
this intransigence. So would you please describe your efforts 
and authorities available to you as Director to ensure agencies 
are living up to their expectations and providing the requisite 
number of staff to you, and that they are of the requisite 
quality that matches your standards. I'm especially interested 
in learning more about the participation of the Department of 
Homeland Security and of State.
    Mr. Leiter. I'd be happy to, Mr. Chairman.
    First, one point I would like to make, that in terms of 
hiring of new analysts directly to NCTC, in all but the rarest 
occasions, those individuals who are being hired do have prior 
analytic experience. So simply because we are hiring them does 
not mean that they have not previously worked at different 
agencies before, and bring that experience with them.
    Now, I'd like to set some foundational principals also. I 
am firmly committed to ensuring that there's a flow of people 
back and forth from NCTC to other agencies. I think it is that 
expertise that gives NCTC strength. The reason behind moving 
above that original 20 to 25 percent was purely born out of our 
experience, and much less so in terms of difficulty getting 
people from other agencies and much more so in ensuring that 
our teams at NCTC have sufficient continuity, that there wasn't 
excessive flow in and out based on detailees going back and 
forth.
    Now, in terms of the Director's authorities to ensure that 
agencies are providing sufficient staff, my authorities are co-
extensive with the Director of National Intelligence's 
authorities. So if an agency fails to provide detailed 
analysts, I work with the DNI to ensure that those people are 
transferred. Now, I can pledge to you that, if confirmed, 
Senator, I will not hesitate in the least to go to the DNI and 
suggest that the DNI use his budgetary authority and reduce 
funding to individual elements if they are not supporting NCTC.
    Now, you asked about DHS and State. I want to start with 
the basic premise that most agencies have done an outstanding 
job of supporting us. And although there were earlier 
bureaucratic fights, I do want to highlight CIA has been 
stellar in its support of NCTC, and they should be commended 
for that.
    Other agencies have not been quite as forthcoming in some 
of their support. The recent inspector general report noted 
some shortcomings on the part of both DHS and the Department of 
State. I am pleased to say that, after I read that report last 
week, I called up the office of the Secretary of Homeland 
Security, and the Secretary's office has already committed 
additional support to immediately fill critical needs.
    Chairman Rockefeller. May I interrupt, only to this point--
since my time is up--that when you get new people, you know the 
intelligence world and you know the agency's world very well. 
And, you're very forthright and I deem you to be dogged. Do you 
say, ``This is who I want,'' or do you select from those that 
they send you?
    Mr. Leiter. There is some combination. We go out, 
initially, and we recruit. We then ask those people to go 
through their chains and provide names. Those names are then 
submitted to us from the agency and we either accept or reject 
people that the agency has submitted. In many, cases people are 
submitted to us that we do not believe are of sufficient 
experience or skill level that they will not help NCTC, and we 
send them back, and we say, please try again.
    Chairman Rockefeller. So in the mixture, you go to the CIA, 
or some other agency, and you say, ``I really need these six 
people.''
    Mr. Leiter. We will select both based on skill set and, in 
some instances, we do by-name requests working with that 
agency.
    Chairman Rockefeller. Senator Bond.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    Mr. Leiter, as you probably well know, last summer, 
Congress passed the Protect America Act, and after that, this 
Committee worked long and hard and came up with what I think 
was an excellent bipartisan measure to make sure that the FISA 
operations could continue. However, we have yet to see a 
positive action by the House on that bill, which is set to 
expire in August.
    To the extent that you can say so in this forum--obviously, 
details would not be appropriate--to what extent does NCTC rely 
on intelligence information collected under Protect America Act 
certifications in conducting terrorism analysis, and what 
impact would there be on your ability to conduct that analysis 
of counterterrorism should this intelligence source stop?
    Mr. Leiter. Mr. Vice Chairman, I would begin just by saying 
that NCTC, obviously, does not collect any intelligence.
    Vice Chairman Bond. That's correct.
    Mr. Leiter. So we are a consumer of the intelligence that 
is collected by organizations like the National Security 
Agency. That being said, a significant percentage of the 
information that we analyze comes from signals intercepts, most 
notably from FISA and, since its passage, the Protect America 
Act. So that is a significant portion of what we look at to 
understand terrorists' plans, intent and the like.
    We do not, as a general matter, know whether or not 
something is collected through standard FISA or Protect America 
Act. We don't delve into that level of detail. I will say that, 
as I understand it, the flexibility that the Protect America 
Act is quite helpful and allows us to be more agile in our 
collection, which, of course, provides us with greater 
information as analysts. And in that regard, it's quite 
important.
    Vice Chairman Bond. In the Committee's pre-hearing 
questions, you were asked about the benefits of co-location, 
particularly given that only the NCTC and FBI's al-Qa'ida 
analytic elements are located at the NCTC. You noted that there 
are some significant advantages to having some CIA analysts 
remain closer to the operational counterparts at CIA 
headquarters.
    Given that no other al-Qa'ida analytic elements are located 
at ALX1, does it still make sense for the FBI to have their 
international terrorism headquarters there? And without getting 
into classified matters, can you give us an analysis of what 
significant advantages there are in having the CIA analysts 
remain at CIA headquarters--and other reasons other agencies 
have given for not locating with the NCTC?
    Mr. Leiter. Senator, I do think there are enormous benefits 
to having the FBI Counterterrorism Division co-located. I think 
it makes sense for FBI--and, obviously, I can only speak so 
much for FBI and CIA--I think it makes sense for FBI because 
they are able to co-locate their analysts and their operators 
together while at the same time having them co-located with 
NCTC. That is a luxury that CIA does not have. CIA cannot both 
co-locate its analysts with NCTC and its operators.
    So in that regard, I think the approach for FBI and for CIA 
makes sense. And I would be fearful--and again, I don't want to 
speak too much for CIA--but I would be fearful of removing the 
CIA analysts from their operational counterparts. I think that 
is a very important co-location. We, I believe, have been quite 
successful in coordinating and collaborating regardless of 
whether all of our analysts are co-located at NCTC.
    Vice Chairman Bond. In our previous discussion, you and I 
talked about advancing the United States' global ideological 
engagement and fighting the ideological war against violent 
extremists. What's the NCTC currently doing to counter the 
spread of violent extremist ideology and how would you judge 
the effectiveness of these efforts? And how can we measure them 
in the future?
    Mr. Leiter. On the analytic front, Senator, we're doing a 
tremendous amount and looking at radicalization from a number 
of angles.
    To begin, I would say we look at it obviously from a 
religious angle, we look at it from ethnographic angle, we look 
at it from a psychological angle. And these are all critical 
elements of understanding the process of radicalization and 
then designing strategies. That's the most advanced effort and 
it's an effort that I'm very proud of.
    On the coordination and strategic planning efforts for the 
U.S. government, those are far more nascent. And I think that, 
if confirmed, I would view it as my number one strategic 
planning priority to forcefully coordinate and synchronize U.S. 
government efforts.
    We've been at this from NCTC's perspective for only about 
four months, five months. I think we've made excellent progress 
in coordinating some of the U.S. government messaging. But this 
is about much more than messaging. It is forcefully 
coordinating things like foreign aid, private investment 
overseas and the like, both overseas and domestically, to 
counter the spread of the ideology which contributes to 
terrorism.
    Vice Chairman Bond. Thank you very much.
    Chairman Rockefeller. Thank you, Mr. Vice Chairman.
    Senator Feinstein, if you'd forgive me, I have certain 
standard preliminary questions which I failed to ask you.
    Mr. Leiter, do you agree to appear before the Committee 
here or in other venues when invited?
    Mr. Leiter. I do.
    Chairman Rockefeller. Do you agree to send officials from 
the NCTC or the intelligence community to appear before the 
Committee and designated staff when invited?
    Mr. Leiter. I do.
    Chairman Rockefeller. Do you agree to provide documents or 
any material requested by the Committee in order for it to 
carry out its oversight and legislative responsibilities----
    Mr. Leiter. I do.
    Chairman Rockefeller [continuing]. And think it through 
carefully before answering.
    Mr. Leiter. I do, consistent with past precedent.
    Chairman Rockefeller. Will you ensure that the NCTC and the 
intelligence community provide such material to the Committee 
when requested?
    Mr. Leiter. I do, Senator.
    Chairman Rockefeller. Okay. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Leiter, I very much appreciate the time we've had to 
spend, and at that time you mentioned the absence of sufficient 
support from the State Department of Intelligence and Research 
and also from the Department of Homeland Security. You just 
said that you had talked to both and you believe the situation 
would be remediated.
    I'd like to ask you a simple question. If it is not, would 
you please let us know?
    Mr. Leiter. I will happily let you know, Senator Feinstein.
    Senator Feinstein. Thank you very much.
    In your written responses to the pre-hearing questions, you 
noted that DNI McConnell had specifically tasked you to 
``increase the quality of NCTC's analytic products.''
    In what way have you found those products deficient? And 
how do you plan on or have you increased the productivity and 
the quality?
    Mr. Leiter. Senator, I think some of our products--if I 
look back a year or more--some of those products did not 
include, for example, the regional context that was required; I 
mean, terrorism occurs in regions. And we didn't always 
integrate regional expertise sufficiently. So I think our 
readers could not get the full picture.
    I think in some areas we ran the risk--I'm not sure it ever 
happened--but we ran the risk of groupthink as quickly-emerging 
plots are being uncovered.
    So what we've tried to do in the first instance is make 
sure that our analysts get better training and coordinate 
better with our regional counterparts. And on the second, we 
have actually done integrated red team and alternative analysis 
during threat streams as they emerge to ensure that we are not 
getting caught or pushing the intelligence community down the 
avenue of groupthink that has been so harmful in the past.
    Senator Feinstein. Now, we are being told that al-Qa'ida is 
in its strongest position since the attack on 9/11. The 
unclassified judgments from the NIE on terrorism last summer 
stated, ``Al-Qa'ida is and will remain the most serious 
terrorist threat to the homeland, as its central leadership 
continues to plan high-impact plots while pushing others in 
extremist Sunni communities to mimic its efforts and to 
supplement its capabilities. We assess the group has protected 
or regenerated key elements of its homeland attack capability, 
including a safe haven in the FATA areas of Pakistan, its 
operational lieutenants and its top leadership.''
    The classified reports since then are even more blunt. 
``Despite tens of billions of dollars spent since 9/11 and 
countless lives lost, al-Qa'ida remains firmly ensconced in the 
FATA region. It's able to plot and we are still revising our 
counterterrorism strategy.''
    What is your vision of how we should be fighting terrorism 
into the next administration?
    Mr. Leiter. Senator, thank you for that question--and I'll 
obviously have to leave it at a level of generality considering 
the unclassified nature.
    First, I think we have to fight a full spectrum war. There 
are pieces of al-Qa'ida and other terrorist groups which will 
only be incapacitated through either kinetic means or law 
enforcement--actual incapacitation.
    That being said, that is one end of the spectrum. And I 
would say in the FATA and elsewhere, whether or not it's North 
Africa or East Africa, we have to do a better job of 
coordinating with that kinetic force the other elements of 
national power.
    We have to----
    Senator Feinstein. Explain kinetic force--that's a bit 
above my pay grade.
    Mr. Leiter. I apologize. Kinetic force is high explosives. 
It's going out and killing people. And there is a certain 
population that that is probably the right answer.
    But we have to combine with that and build around that the 
other elements of diplomacy, political engagement, financial 
sanctions and ideological engagement to ensure that the people 
who are trying to incapacitate do not find support in their 
society.
    I think that is particularly important in Pakistan. We have 
to continue to work with our allies, we have to have a 
government that is a long-term partner with the United States, 
that does not fluctuate when their administration changes or 
our administration changes. And we have to ensure that they are 
able to drain the swamp which supports the individuals who are 
actively plotting against the United States and our allies.
    Senator Feinstein. Well, those are generalities. Any 
specifics?
    Mr. Leiter. Senator, I would be happy to go into extensive 
discussion of specifics of my thoughts on the FATA. Again, I 
think in an open session, it's difficult to give you many of 
those specifics.
    Senator Feinstein. Okay, fair enough. My time is up.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Feinstein.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Leiter, I want to follow up a different path in the 
same area as Senator Feinstein discussed to get your assessment 
of where we are today. Director McConnell gave us some stunning 
testimony three months ago. He said that al-Qa'ida central 
leadership in Pakistan--and I'll quote here--``has been able to 
regenerate the core operational capabilities needed to conduct 
attacks in our country.'' So extra points for the Director's, 
you know, candor, but I still want to get your sense.
    As of today, are our counterterrorism efforts succeeding?
    Mr. Leiter. Senator, I think our counterterrorism efforts 
are succeeding along a number of fronts, and along a number of 
fronts, we obviously haven't succeeded well enough. I think----
    Senator Wyden. But Mr. Leiter, how can you say we're 
succeeding when al-Qa'ida actually appears to be regenerating 
its capabilities? I think we'd agree there's no bigger 
terrorist threat than al-Qa'ida. So tell me specifically, how 
can you say we're succeeding when al-Qa'ida appears to be 
regenerating its capabilities?
    Mr. Leiter. Senator, what I was trying to say about that 
success is in terms of our intelligence capabilities of 
watching plots as they develop, tracking those plots, 
disrupting those plots and defending the homeland, there have 
been successes. We are doing far better today, I think, at 
NCTC--but beyond NCTC--than we were.
    Where we have clearly not succeeded--I agree with the 
premise of your question--we have clearly not succeeded in 
stopping core al-Qa'ida plotting. We're better at disrupting 
it, but we have not disrupted the senior leadership that exists 
in the FATA, and we have also not stopped the organization from 
promulgating a message which has successfully gained them more 
recruits.
    Senator Wyden. First of all, this isn't my analysis; this 
comes from the Director and it reflects, in my view, great 
credit on the Director for his assessment. And if he says 
they're regenerating and you've said that, in many respects, 
the problem is not being addressed, that to me suggests that 
there needs to be changes in our strategy for dealing with the 
principal threat.
    What is your view about the changes that need to be made?
    Mr. Leiter. Senator, I think the change in the government 
in Pakistan offers real possibilities. I think it offers 
possibilities to work with that government and then have them 
develop a plan. Ultimately, our success will rest on the 
success of the Pakistani government to address the problem 
which is, to a significant degree, within their borders. I 
think that is one area where we have to further our engagement 
with the Pakistanis and work with them to help them defeat it.
    Senator Wyden. Do you believe that any time soon, the 
Pakistani government will be capable of taking away al-Qa'ida's 
safe haven in the Pakistani tribal areas?
    Mr. Leiter. I think we have to work with the Pakistani 
government both on capability and in----
    Senator Wyden. The question was, do you think any time soon 
the Pakistani government will be capable of taking away al-
Qa'ida's safe haven in that area?
    Mr. Leiter. I think there is much more that the government 
of Pakistan could do.
    Senator Wyden. I will ask you that question for the record 
so we get a closed----
    Mr. Leiter. I'd be happy to.
    Senator Wyden [continuing]. Transcript, because that to me 
is the central question. Are we going to be able to get them to 
take away that safe haven any time soon?
    One last question, if I have the time, Mr. Chairman. You've 
been very indulgent. I'm also concerned about terrorism 
financing from Saudi Arabia. The high prices that Americans pay 
at the pump right now are creating huge profits in Saudi 
Arabia, where oil wealth has made a large number of people very 
rich. And the problem, of course, is that many of these Saudi 
citizens turn around and use their oil money to finance 
terrorism around the world.
    Now top Treasury officials have said publicly--I was in the 
Finance Committee when they did--that more money flows from 
Saudi Arabia to the Taliban and Sunni terrorist groups than 
from anywhere else in the world. In your view, how serious is 
this problem?
    Mr. Leiter. Senator, the problem of terror funding from 
Saudi Arabia and elsewhere is very serious. The Saudis have 
been extremely effective in disrupting major portions of al-
Qa'ida within the peninsula, but they continue to face 
challenges in stopping funding elsewhere. I think they have 
been extremely effective in some ways, but there are many 
potential sources of funding.
    Senator Wyden. How cooperative are they being now when it 
comes to cutting off funding for terrorists outside Saudi 
Arabia? I mean, it seems to me that they're interested in 
protecting their own country, but I don't see a lot of 
cooperation as it relates to the area outside Saudi Arabia and 
that this is a problem today. Is that true?
    Mr. Leiter. Senator, I'm not sure I would characterize it 
exactly that way and I would ask--considering the sensitivities 
here--I'd be happy to talk to you about that in a closed 
session.
    Senator Wyden. I'll be glad to talk to you some more about 
it. But, I mean, this is a matter of public record. I mean, 
we're not talking about something that's classified. Stuart 
Levey came to the Finance Committee and, in response to my 
questions, said in public the Saudis are dragging their feet 
with respect to the Financial Intelligence Unit and the 
Charities Commission, and that's how they get all their money 
out around the world to finance terrorism. Is Mr. Levey right?
    Mr. Leiter. Senator, first I would largely defer to Under 
Secretary Levey, who I think is closer to this problem on a 
day-to-day basis than I am. I think that there are many things 
that we could discuss in closed sessions about particular 
efforts by the Saudis, both within the peninsula and overseas, 
that would give greater clarity to what the Saudi efforts have 
been.
    Senator Wyden. I would like greater clarity, but I'd like 
some of it on the public record. I mean, Stuart Levey in 
particular talked about Saudi failure in two kinds of key 
areas. With oil at $100 a barrel, I mean, the Saudi government 
certainly can't say they can't afford to take these steps. What 
arguments would there be for the Saudis not to take action to 
follow through on pledges they made to our country, both with 
respect to the Financial Unit and the Charities Commission? 
What possible argument would there be for their not following 
through?
    Mr. Leiter. Senator, I'm not here to defend the government 
of Saudi Arabia as to why they have or have not followed 
through on these commitments. I think the problem of funding of 
terrorism in Saudi Arabia and elsewhere is one that we have to 
pursue, and I think that Under Secretary Levey, as I said, who 
is extremely close to this, understands the challenges of Saudi 
Arabia. I think the Saudis have made great progress in some 
areas, and in other areas, like other countries, they have 
likely fallen short. And I would happy to discuss it in great 
depth in a closed session.
    Senator Wyden. Chairman, can I ask one final question?
    Chairman Rockefeller. One.
    Senator Wyden. Thank you very much.
    Mr. Leiter, you told Senator Bond that NCTC has only been 
engaged in counterterrorism messaging efforts for the last four 
months. Why did the NCTC decide to do this after not doing it 
for so long and what has been started in the last four months?
    Mr. Leiter. And Senator, I apologize. I really misspoke in 
saying that.
    The NCTC, since we first helped author the National 
Implementation Plan in 2005 and 2006, one of the key pillars of 
that plan was ideological engagement. So in that sense and in 
many respects, we've been involved since 2005, when we were 
first established. What we have started over the past four 
months--a bit longer now, since January--was a more forceful 
integration of efforts across the U.S. government, principally 
with CIA, Department of Defense and the State Department to 
coordinate messages and other outreach in a way that we were 
not given the opportunity to do before.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Mr. Leiter.
    I'd like to follow up on questions that you've been asked 
by Vice Chairman Bond and by Senator Wyden relating to the 
whole question of ideological engagement--what you referred to 
as ``draining the swamp of ideology.'' And I couldn't agree 
with you more that we can attack with kinetic means and should 
and must attack with kinetic means certain individuals and 
certain structures. But if the purpose of the whole exercise is 
simply to have others come up and replace them and you haven't 
won the underlying battle, you really aren't making the kind of 
progress that the country needs.
    And I see your initiative as a correct one. I see it as a 
bold one. And I look at you as an individual reporting to the 
Director of National Intelligence, which is an agency still 
sort of seeking to find its way administratively, and on 
something like this, probably having to bump into not only CIA 
and various components of Defense and the State Department and 
USAID within State and Homeland Security perhaps--who knows who 
all you all have to be involved with.
    From a point of view of administering that purpose, do you 
have the clout that you need to even convene people, let alone 
get direction? What would be the primary motivating 
administrative force behind this effort, if it's not yourselves 
and your organization? And if it is yourself and your 
organization, how do you compete among bigger, stronger, 
closer-to-the-President entities that you would seek to bend to 
your will?
    Mr. Leiter. Senator, thank you for the question. I do want 
to clarify. Although on the analytic front, for ideological 
engagement, I report to Director McConnell, for this planning 
and coordination of the war of ideas, in fact, I report to the 
President directly.
    And in that regard, what I require and what I so far have 
gotten over the past five to six months is a strong hand from 
the National and Homeland Security Councils, because in that 
coordination of those, if I may, big dogs, I need a National 
and Homeland Security Council and a White House that is 
supportive of our efforts to force them together to get that 
message out and coordinate. I have thus far had that, and in 
the process I have been assured that I will continue to have 
that. And the authority that we were given came directly from 
the principals committee.
    Senator Whitehouse. Well, that's very good to hear. I 
appreciate it. That's more than I thought you'd been given, and 
I was worried that you were getting off on a mission from which 
some people never return to have the bureaucratic support 
behind them to make it happen.
    Mr. Leiter. And Senator, I don't want to underestimate the 
challenge there. The challenge remains, and it's a significant 
challenge. And I do think there was great wisdom, from my 
perspective, in having a dual reporting chain. Although it is 
complicated, I think a dual reporting chain--the DNI on 
intelligence and the President on strategic planning--is 
critical.
    Senator Whitehouse. Mr. Chairman, I don't have further 
questions. I am supportive of this nominee and hope that he can 
be confirmed rapidly.
    Chairman Rockefeller. Well, he might be pleased to hear 
that.
    Senator Feingold.
    Senator Feingold. Well, thank you, Mr. Chairman. I have a 
full statement I'd like to enter into the record, if I could.
    Chairman Rockefeller. Please.
    Senator Feingold. And let me also say that I really enjoyed 
our meeting the other day. Thank you for the time. And I think 
you're highly qualified for this, and I look forward to 
supporting your nomination.
    Mr. Leiter. Thank you, Senator.

OPENING STATEMENT OF THE HONORABLE RUSSELL D. FEINGOLD, A U.S. 
                     SENATOR FROM WISCONSIN

    Senator Feingold. Mr. Chairman, while this is a nomination 
hearing, it comes at an opportune time to discuss the 
challenges we face in our fight against al-Qa'ida and its 
affiliates. The State Department's Country Report on Terrorism, 
released last week, painted a bleak picture. Al-Qa'ida has 
reconstituted some of its pre-9/11 operational capabilities in 
the FATA, while its network in the Middle East, Southeast Asia, 
Africa, Europe and Central Asia is working to attack U.S. and 
other western interests.
    To name just two regions that we talked about that I follow 
closely, the terrorist threat in North Africa is growing and 
al-Qa'ida continues to pose a serious threat to the United 
States and allied interests in the Horn of Africa. Yet, almost 
seven years after September 11th, I think the administration 
still lacks comprehensive coordinated strategies to fight al-
Qa'ida and its affiliates globally or regionally.
    Perhaps most dangerous of all is our lack of information 
not only on current terrorist safe havens but, as we talked 
about, on future ones. Despite the 9/11 commission's warning 
that we must focus on ``remote regions and failing states,'' I 
think we've basically failed to do that.
    We've also failed to establish a global collection strategy 
that encompasses not only the intelligence community but other 
means by which our government gathers information, especially 
our State Department. Simply put, we need to ask what it is we 
need to know to protect ourselves, now and in the future, who 
is best positioned to learn it, and how do we direct resources 
accordingly?
    Those questions have not been asked, much less answered, 
which is why Senator Hagel and I have supported legislation to 
establish an independent commission to examine these issues and 
make recommendations to Congress and to the next President. And 
this legislation was, of course, approved by this Committee 
last week, and I'm certainly very pleased with the process that 
we went through in that regard.
    Mr. Leiter, do you agree with the DNI that we have devoted 
disproportionate resources toward current crises rather than 
long-term threats? And would you agree that we do not have 
enough resources devoted to tracking potential terrorist safe 
havens around the world?
    Mr. Leiter. Largely yes, Senator. I wish I had more 
resources to dedicate to longer-term threats, absolutely.
    Senator Feingold. Obviously you're part of the intelligence 
community. But in trying to understand conditions that can lead 
to far-flung regions to become safe havens, how important is 
State Department reporting?
    Mr. Leiter. I consider State Department reporting 
absolutely critical, Senator, because much of the information 
about the instability that can lead to safe havens or 
ideological radicalization comes not from covert collection but 
from open collection, best done by Foreign Services Officers.
    Senator Feingold. In that spirit, there are, of course, 
times in which the intelligence community is better suited to 
collect information on the terrorist threat. But do you agree 
that there are times in which diplomatic reporting can get us 
information more effectively than the intelligence community?
    Mr. Leiter. Absolutely, Senator.
    Senator Feingold. Shouldn't we find ways to direct 
resources toward whoever is best positioned to learn about 
safe-haven conditions?
    Mr. Leiter. Yes, I believe we should.
    Senator Feingold. Mr. Chairman, last week CIA Director 
Hayden gave a speech in which he discussed a number of threats 
to the United States, including how changes in population 
demographics result in violence, civil unrest and extremism, as 
well as the rise in ethnic nationalism.
    In that speech he mentioned the CIA, the FBI and DOD, as 
well as academia and the business sector, but not the State 
Department. While the Director understandably was talking about 
what the CIA brings to the table, his failure to even mention 
that diplomatic reporting could help us understand these 
threats, I think, highlights the enormous challenges we face 
and the reason why this commission is so important.
    Mr. Leiter, do you agree, on another matter, with the State 
Department's conclusion included in its Country Report on 
Terrorism issued last week that incarcerating or killing 
terrorists will not achieve an end to terrorism?
    Mr. Leiter. Yes, I do.
    Senator Feingold. For example, would you agree that the 
strike acknowledged by DOD in Somalia last week is not a 
substitute for a comprehensive strategy to stabilize the 
country?
    Mr. Leiter. I believe they are complementary.
    Senator Feingold. And in that regard, what is that 
strategy? What is the road map to start to reverse Somalia's 
status as a terrorist safe haven? Specifically, who should we 
be reaching out to as potential partners in Somalia?
    Mr. Leiter. Senator, I think the importance of a central 
government and authority in areas like Somalia cannot be 
underestimated. So we must identify those parties that can, in 
fact, consistent with American values, govern that region and 
provide security that we can support but we can never be a 
replacement for.
    Senator Feingold. And who would those parties be, if you 
can say?
    Mr. Leiter. Senator, I have to admit--I'd be happy to take 
that back for the record--I'm not familiar. As you know, the 
parties in Somalia are rapidly changing and numerous, and I 
simply couldn't give you a detailed explanation of who would be 
best fit for a variety of purposes.
    Senator Feingold. Well, as you know from our conversation, 
I'll be very interested in the details when you have an 
opportunity to do that. And I certainly wish you well.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Feingold follows:]
Prepared Statement of Hon. Russ Feingold, a U.S. Senator from Wisconsin
    The State Department's Country Report on Terrorism released last 
week painted a bleak picture of the fight against Al Qaeda and its 
affiliates. According to the report, Al Qaeda has reconstituted some of 
its pre-9/11 operational capabilities in Pakistan's FATA region while 
its network includes associates throughout the Middle East, Southeast 
Asia, Africa, Europe and Central Asia who are working to attack U.S. 
and other Western interests. In the Afghanistan-Pakistan region, Al 
Qaeda has greater mobility and ability to conduct training and 
operational planning, particularly for attacks targeting Western Europe 
and the United States. Portions of Pakistan have become a safe haven 
for Al Qaeda and a host of other dangerous organizations and the threat 
is expanding, with extremists gaining footholds in settled areas of the 
country. Meanwhile, Al Qaeda has expanded its presence in Afghanistan.
    Among the litany of threats described in the report are two other 
regions that I have followed closely. First, the terrorist threat in 
North Africa is growing. Al Qaeda in the Lands of the Islamic Maghreb 
operates across the Sahel region, including in Mali, Mauritania, Niger, 
Algeria and Chad, to recruit for training and terrorist operations. And 
Al Qaeda continues to pose a serious threat to U.S. and allied 
interests in the Horn of Africa. Somalia's political instability, among 
other factors, permits terrorist transit and safe haven.
    Almost seven years after September 11, the Administration still 
lacks comprehensive, coordinated strategies to fight Al Qaeda and its 
affiliates. I have pushed for legislation to require a global strategy 
to fight Al Qaeda, which the Administration has resisted. I have 
succeeded in requiring the administration to produce a regional 
strategy for the Horn of Africa. Unfortunately, the GAO found that this 
strategy was ``incomplete'' and lacking numerous characteristics needed 
for an effective strategy, including information on necessary 
resources, investments and risk management. Meanwhile, the 
Administration appears fixated on a purely military approach to the 
region. Indeed, the very week that DOD announced another strike in 
Somalia, we were reminded yet again--by no other than the State 
Department--that ``incarcerating or killing terrorists will not achieve 
an end to terrorism.''
    Perhaps most dangerous of all is our lack of information, not only 
on current terrorist safe havens, but on future ones. The leadership of 
the Intelligence Community has acknowledged a lack of ``global reach.'' 
It has also admitted that ``disproportionate'' resources are directed 
at current crises, rather than long-term threats. Despite the 9/11 
Commission's warning that we must focus on ``remote regions and failing 
states,'' we have simply failed to do so. We have also failed to 
establish a global collection strategy that encompasses not only the 
intelligence community, but other means by which our government gathers 
information, especially our State Department. Simply put, we need to 
ask what it is we need to know to protect ourselves, now and in the 
future, who is best positioned to learn it, and how do we direct 
resources accordingly. Those questions have not been asked, much less 
answered. For that reason, Senator Hagel and I have supported 
legislation to establish an independent commission to examine these 
issues and make recommendations to Congress and to the next president. 
The Senate Intelligence Committee approved this legislation last week, 
and I will fight to get it passed into law.

    Mr. Leiter. Thank you, Senator.
    Chairman Rockefeller. Thank you, Senator Feingold.
    I just have one comment to make, and then Vice Chairman 
Bond may have a question or so.
    When Senator Wyden was talking about Saudi Arabia, I could 
sort of feel my blood pressure rising. And it's almost 
fascinating. I think that oil was discovered there as late as 
the early 1930s. And I have this general view that virtually 
everything we do in that part of the world is dominated by our 
need for oil.
    And I was stunned--I guess it was approximately a year ago, 
maybe a little bit less--when the President gave them $20 
billion to buy arms. It had not occurred to me that the Saudis 
were either in need of arms or in need of money with which to 
buy arms. And I was thinking, somewhat irreverently, that that 
could go a long way towards finding the way to take carbon 
dioxide out of everything that we burn and make it virtually 
carbon-neutral.
    But nobody seems to want to address this issue. And it's 
either because the hold that they have over us--and some other 
countries around there but particularly them--the hold they 
have over us based upon the friendships that go back over the 
years and the visits and the ambassadors here and there, that 
it, in effect, ends up psychologically tying our hands in order 
to do exactly what it is your job to do, and that is to make 
sure that they are doing everything they can to cut off money 
for terrorists, that they are not just doing that within their 
own country--and granted, they're very good at that, because 
they're a regency. None of them are elected, and they could be 
overthrown, have been before.
    That's a profound sense of unease on my part about America 
facing the world. It's like we're facing the world and mouthing 
all the right sounds, but in fact not doing what's needed to be 
done.
    And I don't necessarily ask for a response on your part, 
although I would welcome one, but I think it's an overridingly 
important matter, not only with the credibility to our own 
people of our efforts in the war on terrorism, but I cannot 
believe that people all over the world who wish us ill are not 
watching that very closely and taking some either amusement or 
at least interest from that fact.
    Mr. Leiter. Senator, three quick points. One, as the Acting 
Director of NCTC and, if confirmed, as Director, obviously I 
have a piece of the Saudi Arabia portfolio, and that is the 
counterterrorism piece. And I always remind my staff, and I 
remind myself that counterterrorism is only one piece of the 
national security puzzle. It may be a critically important 
piece, but it is one piece.
    Second, I would say that the one thing that I can assure 
you is that I would never allow NCTC analysts--and I will 
always support them in every way I can--to not have their work 
colored by the discomfort or political consequences that you 
fear we as a nation experience.
    I will demand of them--I have in the past and I will in the 
future demand of them--that they give the straight truth and 
speak to power about what the Saudi actions are or are not, and 
explain what the counterterrorism consequences are, completely 
and utterly unclouded by other political consequences.
    Chairman Rockefeller. I believe you.
    Vice Chairman Bond.
    Vice Chairman Bond. Thank you very much, Mr. Chairman. I 
agree with the concern that you have raised and Senator Wyden 
has raised about the financing coming from Saudi Arabia. This 
is a very serious question. I know that, having worked with 
Stuart Levey and the others, we know what has been done and 
there is much more that needs to be done, and we will look 
forward to following up with you to see what the NCTC can bring 
forward.
    Also, with respect to al-Qa'ida and its planning capability 
in the FATA, I think that there have been some recent newspaper 
op-ed pieces talking about a better strategy for dealing with 
the FATA. And I hope we can go into those, because I think we 
can take those as a stepping-off point to see where you would 
go from there.
    I would note that with all the planning capabilities, there 
are a number of high-level al-Qa'ida operatives who have 
kinetically disappeared on a regular basis in the FATA, and 
that has limited their ability to carry out operations. And I 
also think that the fact that we have been kept free from 
attacks since 9/11 is in no small part due to the information 
collection, the activities in the groups you serve as well as 
our military efforts there.
    But I would ask you first, some people say that the battle 
with al-Qa'ida is no longer in Iraq. Now, that is directly 
military. But I would ask your assessment of where al-Qa'ida is 
posing the greatest threat to United States interests. Is it 
not in Iraq?
    Mr. Leiter. Senator, to the extent that we have military 
forces in Iraq, al-Qa'ida in Iraq, which continues to exist, 
poses the most direct threat to U.S. interests, those troops on 
the ground in Iraq, in Iraq.----
    Vice Chairman Bond. What would the impact on terrorism be 
if we departed and Iraq was open as potentially a safe haven 
for al-Qa'ida again? What would the impact on the terrorist 
threat to the United States be?
    Mr. Leiter. Senator, were al-Qa'ida to have a safe haven in 
Iraq, I would assess that that safe haven would pose a very 
similar threat to the United States and U.S. interests as does 
the FATA in Pakistan. And, from my perspective, that's a dire 
threat.
    Vice Chairman Bond. Well, I would think there would be much 
greater opportunity for establishing command and control and 
operational activities than they have in the FATA.
    But I'm very interested in the points that Senator Feingold 
raised about the comprehensive view of where the threats to the 
United States come from terrorism and how we're going to deal 
with them.
    Now, it seems to me that what he outlined pretty much fits 
with what I thought the NCTC was supposed to do--figure out 
where the terrorist threats are, where the emerging threats 
are, and be able to take those recommendations through the 
principals committee to all of the agencies, whether it's State 
Department, military, CIA, or anyone else that has something to 
do with them.
    Am I wrong? Is this not pretty much what he outlined what 
your responsibility is? And if it is, are you lacking in 
statutory authority? Or what do you and the NCTC need to answer 
those very important questions that Senator Feingold raised?
    Mr. Leiter. Senator, I do think that's NCTC's 
responsibility. It is to identify where the threat is and then 
help write the plan and implement the plan for attacking that 
threat.
    I think that we have done that and we continue to try to do 
that. We are trying to grow the capacity every day to do more 
of that in more places.
    Vice Chairman Bond. And would you not say that developing 
threats--and he indicated the challenges that he sees in the 
various locations in Africa--is that part of your portfolio?
    Mr. Leiter. Absolutely, Senator. We've been instrumental in 
authoring regionalization counterterrorism plans in North 
Africa, East Africa, Southeast Asia, and the like.
    Vice Chairman Bond. My personal view is that we ought to 
see that you have the resources, the horsepower to do it. I 
think you are in the best position to do it. You have the 
assets; you have the analysts and others. My view is that we 
need to look to you to get this job done.
    If you need a commission, tell us. If you need resources, 
tell us. Or, as I am concerned, there isn't adequate 
legislative structure for the DNI, through exercising his 
powers, to develop an effective, integrated intelligence 
collection operation and assignment of responsibilities 
activity.
    This all goes to, I guess, the strategic operational 
planning, and I would like to know your views on that and if 
you see any weaknesses in the strategic operational planning 
that is going on at the NCTC, and what we can do to fix them.
    Mr. Leiter. Senator, I think the strategic operational 
planning construct, as I said in my opening statement, is 
exactly what the U.S. government needs because it is the only 
place in the government that can have concerted, continued 
effort at interagency coordination beyond simply the NSC and 
HSC.
    That being said, it is a construct which runs up against 
many entrenched institutional both executive branch and 
congressional interests.
    Vice Chairman Bond. Stop! Congress? I say that mockingly 
because we do turf about as well as anybody else. But we do see 
it in there.
    So we need to discuss with you, are there additional 
statutory authorities needed to get this job done?
    Mr. Leiter. Senator, I actually think, with what I've seen 
thus far, that with a strong National Security Council this can 
be done well. But I would absolutely take from you the charge 
to look, if I'm confirmed, at how we can improve this. And I am 
more than happy to come back to this Committee and make those 
suggestions to give us a stronger hand to coordinate U.S. 
government efforts if that is what needs to happen.
    Vice Chairman Bond. I believe it's absolutely essential. 
You referenced the State Department and others. And, frankly, 
right now, our best diplomacy is being conducted by the U.S. 
Army and National Guard. And I'd like to see the State 
Department get in the game. That's just--I won't ask you to 
comment on that.
    Mr. Chairman, I'll leave that one lying out there.
    Chairman Rockefeller. Well, it would also be good if we 
gave them the money to be in the game.
    Vice Chairman Bond. Exactly. That's our responsibility, our 
failure.
    Chairman Rockefeller. Thank you, Vice Chairman Bond.
    Mr. Leiter, I just would like to say things which would be 
excessive, so I won't. But if there were a single negative vote 
on you in this Committee, I would be very surprised. And that's 
not just because there is the absence of fault or the absence 
of commission on your part as Acting, but also because of what 
I feel is the truly extraordinary abilities that you bring and 
the role model that you serve as, not only to us but to 
Zachary, who has long since disappeared--decided not to defend 
you in critical situations--but that you're kind of an ideal of 
what a public servant ought to be.
    So this hearing is a pleasure. I would like to see you get 
confirmed next week. We have to get the record of this hearing 
transcribed and made available to all Members, then there are 
other small details that we have to do. But if it could be done 
next week, I'd like to do it simply as a way of giving you a 
faster start. If it can't be, it will not be because we don't 
want to, but because of technical questions which will not 
remain about you but remain in our process.
    So I thank you, and this hearing is adjourned.
    Mr. Leiter. Thank you, Mr. Chairman.
    [Whereupon, at 4:40 p.m., the Committee adjourned.]
                         Supplemental Material


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
